BECKER GALLAGHER
Briefs

Supreme Court ofthe United States
United States Courts ofAppeals

and Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Brief in Opposition in 20-331, Donald J.
Trump, President of the United States v. District of
Columbia, et al., was sent via Three Day Service to the
U.S. Supreme Court, and 3 copies were sent via Three
Day Service and e-mail to the following parties listed
below, this 14th day of December, 2020:
Jeffrey Wall
Acting Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Petitioner

Karl A. Racine
Attorney General for the
District of Columbia
Loren L. Alikhan
Solicitor General
Counsel of Record
Caroline S. Van Zile
Principal Deputy Solicitor General
Stephanie E. Litos
Assistant Deputy Attorney General
400 Sixth Street, NW, Suite 8100
Washington, D.C. 20001
(202) 727-6287
loren.alikhan@dc.gov

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
' Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Brian E. Frosh
Attorney General of Maryland
Steven M. Sullivan
Solicitor General
Leah J. Tulin
Jeffrey P. Dunlap
Assistant Attorneys General
200 Saint Paul Place, 20th Fl.
Baltimore, Maryland 21202
(410) 576-6962
ltulin@oag.state.md.us
Joshua Matz
Raymond P. Tolentino
Molly Webster
Kaplan Hecker & Fink LLP
350 Fifth Avenue, Suite 7110
New York, NY 10118
(212) 763-0883
jmatz@kaplanhecker.com
Deepak Gupta
Gupta Wessler PLLC
1900 L Street, NW, Suite 312
Washington, D.C. 20036
(202) 888-1741
deepak@guptawessler.com
Noah Bookbinder
Laura C. Beckerman
Stuart C. McPhail
Citizens for Responsibility
and Ethics in Washington
1101 K Street, NW, Suite 201
Washington, D.C. 20005
(202) 408-5565
lbeckerman@citizensforethics.org

Joseph M. Sellers
Christine E. Webber
Cohen Milstein Sellers & Toll PLLC
1100 New York Avenue, NW
Washington, D.C. 20005
(202) 408-4600
jsellers@cohenmilstein.com
Counsel for Respondents

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on December 14, 2020.

rt)

D�nna J. Wolf
Becker Gallagher Legal Publi bing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

